CERTIFICATE OF COMPLIANCE
Case No. - - - Caption: Bowes v. Melito
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 8,983 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 16, 2019.

~)
Record Press, Inc.

Sworn to before me on
October 16, 2019
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 01OS6101366

